SUPREME COURT OF THE UNITED STATES
WASHINGTON, D.C.
)

Clara Lewis Brockington,

No. 20-6158

)

Plaintiff,

)

USCA4 No. 19-1705

)

Vs.

)

South Carolina Department of Social
Services, et al.,
Defendants.

PETITION FOR REHEARING

)
)
)

Pro Se Plaintiff is presenting before the COURT this PETITION FOR
REHEARING to be granted by the Supreme Court of the United States. This
PETITION FOR REHEARING is being presented in a timely manner, in good faith
and not for delay. Pro Se Plaintiff is asking that the COURT grant this PETITION
FOR REHEARING, due to the pain and suffering, stress, depression, anxiety, loss of
income, inability to walk, sit, stand, kneel, exercise, drive, interact with family,
friends, worship services, work, socialize, etc. for the past five years or more, due
to the negligence of South Carolina Department of Social Services. Pro Se Plaintiff
has stated a claim for relief and requesting that this case is continued to settle the
claim. I will have to continue seeing Medical Professionals for the remainder of
my lifetime. Thanks in advance for granting this PETITION FOR REHEARING
and/or settling the claim for relief expeditelyf

£Unsa'Tewis Brockington, Pro Se Plaintiff
02
P. O. Box 3232, Florence, S. C,
Telephone: (843) 616-1317
February 1, 2021
Florence, South Carolina

MAR I - 2021
supreme"COURTLngK

SUPREME COURT OF THE UNITED STATES
WASHINGTON, DC

Clara Lewis Brockington,

)

No. 20-6158

)

Plaintiff,

)

USCA 4 No. 19-1707

)

South Carolina Department of Social )
)
Services, et al.,
)
Defendants.

PETITION FOR REHEARING

I, Clara Lewis Brockington, Plaintiff is filing a PETITION for Rehearing to the
court due to denial of Petition for a Writ of Certiorari. This PETITION for
Rehearing is presented in good faith and not for delay. Pro Se Plaintiff is
appealing to the Supreme Court for a rehearing due to numerous reasons.
Please note for the record that the COURT did not list any reasons why the
Petition for a Writ of Certiorari was denied, in order that the proper corrections
could be made and resubmitted. This case has been reviewed by a Paralegal who
has over 20 years working in the legal system. After working in the courtroom
myself for numerous years, before receiving a permanent injury at South Carolina
Department of Social Services, where Pro Se Plaintiff was employed, Pro Se
Plaintiff consulted numerous legal teams, that this is a due to be paid worker's
compensation case. Pro Se Plaintiff is requesting what did you received from
South Carolina Department of Social Services that outweighed Pro Se Plaintiffs
facts. Pro Se Plaintiff always request the advice of legal teams before submitting
to Court. Pro Se Plaintiff has been indigent since the injury and no compensation.

FACTS
Pro Se Plaintiff is an indigent, single parent that received a Paralegal Degree
from a two year college and worked in the legal field for some years after
graduation from this college. Pro Se Plaintiffs parents continued to assist me to
continue my education to a four year college where I changed my major to
Sociology, while I attempted to work and attend college at the same time.
However, Pro Se Plaintiff was able to continue college only two years, instead of
four years, due to lack of funds. Pro Se Plaintiff continued to work for numerous
years and had the determination to apply for a school loan and continue my
education to receive another degree. After attending another four year college
and changing major to Social Work, Pro Se Plaintiff was successful in two years to
receive a Bachelor's Degree. Pro Se Plaintiff worked in numerous capacities for
years successfully. Pro Se Plaintiff became challenging and wanted to seek
another degree in a more supervisory role and applied to another prestige
university and was accepted. Pro Se Plaintiff had two children, working a full time
job and decided to challenge furthering my education. After three long years of
attending school every weekend and not being able to continue my spouse's
duties, mother's duties, religious duties, socialization, family values, etc., Pro Se
Plaintiff graduated cum laude and later began my legal career in the courtroom
for numerous years, until I fell at South Carolina Department of Social Services on
Two Notch Road, Columbia, South Carolina approximately June 24, 2015.
Pro Se Plaintiff had never received a verbal nor written documentation
from Supervisor or any other Supervisory Personnel at South Carolina Department
of Social Services. Pro Se Plaintiff had good work ethics, a team player, over 10
years of work experience, had supervisory skills, excellent computer skills, hired

as a Foster Care Manager, knowledgeable of the Columbia area, due to travelling
with other employment, management skills, training experience, own
transportation, family member in college and family member living in the
Columbia area, great family support, etc. I stayed late at work most every day to
complete assignments before departing for home. I came in early every morning
to prepare for the start of the day. I worked on-call on weekends as needed. I
knew all of my foster parents and children on a personal basis. I never received a
complaint from my superiors from agencies, courts, families, co-workers, etc. Pro
Se Plaintiff attended all meetings, conferences, trainings (by unqualified,
uneducated and unlicensed trainers).
INJURY
As Pro Se Plaintiff attempted to depart from my desk to my car after work
on or approximately June 24, 2015, Pro Se Plaintiff fell in the parking lot at work.
Pro Se Plaintiffs Supervisor, Ms. Goodson was walking beside me and assisted me
on getting up from the pavement. Ms. Goodson asked that I go to receive
medical care from a hospital or doctor's office and call her back and let her know
whether there was an injury to my body parts. Pro Se Plaintiff followed all the
instructions given concerning my injury. Pro Se Plaintiff went to the Emergency
Room to get medical attention and called Ms. Goodson back and gave her all
instructions from the Medical Personnel with recommendations. Ms. Goodson
informed me that I needed to call the Human Resources Office and discussed my
injury and that office will direct me on what to do next. All the instructions were
followed by Pro Se Plaintiff; however, when the Medical Professionals requested
worker's compensation paperwork, South Carolina Department of Social Services
refused to give me paperwork and refused to follow the Medical Professionals

recommendations. I stated to my supervisor, Ms. Goodson that I will have to
consult with Advisors if South Carolina Department of Social Services were not
going to be responsible for my injury, worker's compensation, etc. South Carolina
Department of Social Services violated my Fifth Amendment - Rights of Persons]
which states, "No person shall be held to answer for a capital or otherwise
infamous crime, unless on a presentment or indictment of a Grant Jury, except
in cases arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject for the
same offense to be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be deprived of life,
liberty or property, without due process of law; nor shall private property be
taken for public use, without just compensation."
As the COURT, can see per my ADVISORS, lots of my rights were broken
here. A crime was committed and I was put in jeopardy as I committed the crime,
but the crime was committed by South Carolina Department of Social Services
knowingly, without showing concerns and cares for an employee that they hired
to do a job as a Foster Care Manager. When they refused to allow me to express
my injury to the correct person(s) at South Carolina Department of Social Services
Department Human Resources Office, this violated my [First Amendment -]
Freedom of Expression and Region;. This amendment states, "Congress shall
make no law respecting an establishment of religion or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition the Government for a
redress of grievances." When I contacted Human Resources by phone and went
to the office in person, everyone refused to give the correct paperwork to return

to Medical Professionals so that I may continue my treatment, because I was
unable to walk, stand, kneel, bend, stand, etc., on this leg. I presented the Human
Resources Department, as well as Ms. Gooden, my supervisor, a copy of the
Emergency Room Medical Professionals' evaluation and recommendations. I now
am in pain, distress, stressed, depressed and had lots of anxiety for a long period
of time. After speaking with my personal physicians, they advised me to seek
further advice so that I can receive the necessary medical treatment. To this date,
I continue to need medical treatment, medications, unable to walk, stand, bend,
kneel, and sit, etc., for long periods of time, due to the injury I received at South
Carolina Department of Social Services.
Pro Se Plaintiff has presented this case in numerous COURTS, which denied
my cases (without any reasons). Pro Se Plaintiff has allowed a Paralegal and
possibly her team to review all of my cases before submitting them to COURT,
and there has not been concerns from these teams (who are certified, degreed
and licensed in this field) that reviewed these cases and declared that they do
NOT see any reasons why they were NOT approved. iAmendment 7 -j Civil Trials
have also been violated by South Carolina Department of Social Services. The
Amendment states, "In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury shall be preserved, and no
fact tried by a jury, shall be otherwise re-examined in any Court of the United
States, than according to the rules of the common law." Pro Se Plaintiff feels
that this case being tried in numerous courts violates the 7th Amendment. Pro Se
Plaintiff can assure the Supreme Court that this case continues to be retried over
and over again, also by this Court, which is against the laws of the Constitution.

Pro Se Plaintiff also had [Amendment 9 rights violated also which include?
Sother rights that are implied by existing laws such as in the written constitutions'
[but are not themselves expressly coded or enumerated among the explicit writ
[of the law. Alternative terminology sometimes used are: implied rights, natural
rights, background rights and fundamental rights."| My enumerated rights were
violated by South Carolina Department of Social Services when my supervisor, Ms.
Gooden admitted that she saw me fell on South Carolina Department of Social
Service's property, helped me get up from the pavement and informed me to go
seek medical attention and report that information back to her. My rights were
violated as a citizen, employee and person of knowledge and individual that was
without expression or instance of articulation. Pro Se Plaintiff is presenting this
case in good faith and not for delay. I continue to suffer today and should be
granted the rights to go to South Carolina Department of Social Services at this
time after five years and receive full compensation and Relief Claim requested.
Pro Se Plaintiff further hfccj [Amendment 14 - Rights Guaranteed: Privilege;
[and Immunities of Citizenship, Due Process and Equal Protection!. Pro Se
Plaintiff is aware of numerous other persons receiving compensation from injuries
at South Carolina Department of Social Services that were White and of younger
age. This is a form of discrimination per South Carolina Human Affairs Commission
and Equal Employment Opportunity Commission, if this case is referred to these
agencies for complaints. (All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No States shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor shall any

State deprive any person of life, liberty or property, without due process of law;
nor deny to any person within its jurisdiction the equal protection of the laws).
Please note for your records that Pro Se Plaintiff has not been treated
equal, with justice for all, correctly, and protected by the equal protection of the
laws. Pro Se Plaintiff is asking the Supreme Court to review and reconsider that
every COURT has looked over discrimination, according to Human Affairs
guidelines and Equal Opportunity guidelines. Pro Se Plaintiff is in a protected
class that will testify in this COURT. ADVISORS have pointed out all of the
mistreatment, refusing to admit discrimination, age, color, gender, race, etc. As
the highest Court in the Land, please review this and all documents and you will
find that all rulings should be in favor of Pro Se Plaintiff on granting this Appeal.
REASONS FOR GRANTING
Why was I terminated from South Carolina Department of Social Services?
Per Human Resources, Mr. Reese Palmer, County Director was terminated
immediately for wrongful termination after receiving Pro Se Plaintiffs complaint.
Why was Pro Se Plaintiff and other former employees of South Carolina
Department of Social Services terminated after testing when the University of
South Carolina (my alumni) contractual staff were NOT QUALIFIED when
administering the test. Pro Se Plaintiff have former employees that will be
witnesses, as well as present employees of the University of South Carolina.
Why I was NOT paid any compensation from the fall and injury, as well as
continued treatment for this injury, when Ms. Gooden, Supervisor confirmed that
Pro Se Plaintiff fell while we were on the property of the South Carolina
Department of Social Services after work on my last day of employment? Ms.
Gooden and several other employees and former employees of the University of

South Carolina and South Carolina Department of Social Services have been set up
to testify on this case effective immediately.
When Pro Se Plaintiff did a group interview and completed paperwork for
hiring, there were numerous employees and former employees in this interview
and meeting. Question: Why the Supreme Court of the United States have not
called any of us to testify, so that you will have BOTH sides of the case?
Did the Supreme Court of the United States contact the South Carolina
Human Affairs Commission for the results of their investigation? Pro Se Plaintiff
feels that she should have been contacted to discuss the results of the entire case
on reasons why it was deny, along with the S. C. Human Affairs findings.
CONCLUSION
Pro Se Plaintiff was wrongfully terminated from South Carolina Department
of Social Services on or about June 24, 2015. Pro Se Plaintiff fell at South Carolina
Department of Social Services on this same date and received an injury that I
never received compensation and requesting compensation in the amount of
$50,000 for medical bills, medications, etc., as well as $30,000 annual salary X 5
years for financial compensation. Due to Pro Se Plaintiff having witnesses from
South Carolina Department of Social Services, as well as the University of South
Carolina in Columbia, South Carolina, Pro Se Plaintiff has a MOTION before he
COURT, requesting a Relief Claim from South Carolina Department of Social
Services, Defendants for $30,000 x 5 years ($150,000) and $50,000 for medical,
pain and suffering, distress, disability, indecency, stress, depression, therapy,
anxiety, etc., from the fall and injury received on or about June 24, 2015. If this
PETITION FOR REHEARING is denied, please list all reasons for denial and the next
legal step. Pro Se Plaintiff is requesting that the COURT consider, Pro Se Plaintiff

is a citizen of the United States, would like to be treated as you would want your
child to be treated, indigent, disabled and have lost almost everything, due to this
fall and injury received at South Carolina Department of Social Services, with no
compensation, relief claim, etc. Please consider at this time that I recently lost
my companion to death (Congestive Heart Failure) and this past weekend, I lost
my nephew to dying in the park from a seizure with temperatures of 20 degree
weather. Today, I lost my brother in the nursing home from abnormal breathing.
However, I was working on this PETITION since I received it recently, and pushed
forth the effort to get it to the Supreme Court in a timely manner. Thanks in
advance for your consideration that I made this effort, even though I am dealing
with two (2) deaths at this time. Please grant this PETITION FOR REHEARING,
effective immediately. Again, thanks for working, even there is a PANDIMIC!

jJa-farCewis Brockington, Pro Se Plaintiff ^
Post Office Box, Florence, South CarpJtKa 29502
Telephone: (843) 616-1317

February 1, 2021

Florence, South Carolina

